    Office of Inspector General
     U.S. Department of State
 Broadcasting Board of Governors




Strategic Plan
 FY 2002 - 2007
                                                                                                Table of Contents

Foreword .......................................................................................................................................................................................................      2

Vision ............................................................................................................................................................................................................   2

Mission..........................................................................................................................................................................................................     2

Framework and Statutory Responsibilities ...................................................................................................................................................                          3

Relationship Between Strategic and Performance Goals ..............................................................................................................................                                   3

General Means and Strategies .......................................................................................................................................................................                  4

Assumptions..................................................................................................................................................................................................         4

Program Evaluation.......................................................................................................................................................................................             4

Key Factors That Could Affect Goal Achievement ......................................................................................................................................                                 5

Strategic Goals ..............................................................................................................................................................................................        6

The Department and the BBG Effectively, Efficiently, and Economically Advance the Foreign Policy Interests of the United States .....                                                                                 6
The Department the BBG Adequately Project the People, Information, and Facilities
 Under their Control in the United States and Abroad ................................................................................................................................                                 7
The Department and the BBG Have the Necessary Financial and Support Systems
 and Controls to Meet Legal and Operational Requirements ......................................................................................................................                                       8
The Department and the BBG are Free of Fraud, Waste, Abuse, and Mismanagement ...............................................................................                                                         9




                                                                                                           1
                                                             Office of Inspector General
                                                              Strategic Plan, FY 2002-07


                                                                      Foreword
Three years ago, OIG developed and began implementing our first strategic plan under the Government Performance and Results Act (GPRA). Since
that time, the nature of planning and performance measurement in government has advanced significantly. What was an experimental exercise,
attempted by only a few pilot organizations and forward-looking agencies, has become a broad initiative and the focus of increasing Congressional
and Executive Branch attention.
This strategic plan reflects both a significant rethinking and a reaffirmation of our original strategic goals and planning framework. From a series of
goals focused around our operational objectives, we have moved toward a focus on the primary issues affecting the economy, efficiency,
effectiveness, and integrity of the Department of State (Department) and Broadcasting Board of Governors (BBG) programs and operations including
foreign policy, security, financial management and administrative support, and accountability. In addition, to ensure that we remain flexible and
responsive to the demands and challenges of the Department, Congress, and an ever-changing world environment, we have recently reorganized along
more traditional functional lines that will help us achieve our goals more effectively, efficiently, and economically.


                                                                        Vision
To support the Department of State and the Broadcasting Board of Governors in achieving their missions as effectively, efficiently, and economically
as possible.


                                                                       Mission
The mission of the Office of Inspector General is to serve as an independent, objective reviewer and evaluator of the operations and activities of the
U.S. Department of State and the Broadcasting Board of Governors. We analyze those operations and activities with a view toward promoting
effectiveness, efficiency, and economy. We seek out instances of fraud, waste, abuse, and mismanagement, and we work to prevent them. We report
to the Secretary of State, the Broadcasting Board of Governors, and the Congress, keeping them fully and currently informed of significant
developments and serious concerns.




                                                                             2
                                                       Framework and Statutory Responsibilities
The 1978 Inspector General Act, as amended, and the 1980 Foreign Service Act, respectively, charge the OIG with detecting and preventing waste
fraud, and mismanagement and with assessing whether U.S. foreign policy goals are being achieved, resources are used to maximum efficiency, and
all elements of U.S. overseas missions are coordinated. With subsequent legislation mandating OIG’s oversight of the Arms Control and
Disarmament Agency and United States Information Agency (consolidated with the Department of State in Fiscal Years 1999 and 2000, respectively),
and the BBG, this authority covers about $7 billion in programs and spending, and overall direction and coordination of the entire $23 billion of
international programs by non-Function 150 agencies, other than military personnel serving under a regional commander.
    OIG’s security and intelligence oversight responsibilities were established through the Omnibus Diplomatic Security and Anti-Terrorism Act of
1986 and executive orders 12333 (U.S. Intelligence Activities) and 12863 (President’s Foreign Intelligence Advisory Board). OIG also is responsible
for evaluating compliance with other legislation—such as the Chief Financial Officers Act, Federal Managers’ Financial Integrity Act, and Clinger-
Cohen Act (Information technology reform)—designed to enhance management performance. OIG will also assess, as appropriate, the Department’s
and BBG’s efforts to make and measure progress toward achieving their goals.


                                                Relationship Between Strategic and Performance Goals
The following pages set forth OIG’s strategic goals and objectives. The strategic goals are described in terms of the desired outcomes that we expect to
see in improved Department and BBG programs and operations by 2007, and the long-term strategies required to achieve each. Our annual
performance plans for FY 2002-03 and subsequent years will translate these into the more specific, short-term goals, objectives, means, and strategies
necessary to realize each strategic goal over the next six years. Our success will be demonstrated through these and the mandated performance
measures set forth in the Inspector General Act reporting requirements, other measures of economy, efficiency, effectiveness, and customer
satisfaction, as appropriate, and by the outcomes achieved by the entities subject to our oversight.


                                                             General Means and Strategies
The fundamental means for achieving our strategic and performance goals and objectives will continue to be the audits, inspections, and investigations
that comprise the bulk of our efforts. In addition, we will expand outreach programs to clients and other interested parties and increase our
participation in training programs and other forums to expand our influence with them, as well as with the rest of the foreign affairs community. We
also will reexamine and reengineer our core processes, products, and services to improve the quality, timeliness, and impact of our efforts; better serve
our customers and other interested parties; and ensure the achievement of our, as well as their, strategic and performance goals and objectives.
    Recognizing that the skills and abilities of our staff are crucial to our success, we will undertake initiatives to recruit and retain highly qualified
employees, including, to the extent resources permit, financial incentives such as premium pay and recruitment and retention bonusess. To promote
continued professional development of our staff, we will provide them with a variety of educational and career development opportunities. These will
include both formal training at high quality institutions, such as the Foreign Service Institute and the Inspectors General Auditor Training Institute, and
on-the-job experiences internally and through temporary details to functional positions in the Department and other government agencies. We also
will continue to encourage and support their efforts to achieve appropriate professional certifications, such as the designation of Certified Public
Accountant.
                                                                               3
   Our general strategies for achieving our goals begin with increasing our efforts to solicit regularly the views of and obtain feedback from our
principal customers and other interested parties through consultations, customer surveys, and follow-up reviews to ensure that our products and
services are anticipating and meeting their needs. We will be more proactive in addressing the challenges of the foreign affairs agencies; work with
them to anticipate and address potential problems in new and developing initiatives and programs; adopt a more consultative approach in
communicating with them about our activities, findings, and recommendations; and expand productive dialogues with agency managers.
   In addition to these general strategies, we also have developed more specific approaches that we will implement over the next six years to achieve
our strategic goals and objectives, as described on pages 5-8. Individual components of these strategies to be implemented each year will be
described, as appropriate, in our annual performance plans.


                                                                     Assumptions
Our strategic plan is predicated on the assumption that OIG budget and staffing levels will remain relatively stable. This assumption will require a
reversal the pattern of recent years, which have seen a steady "real term" budget decline. Should this trend continue unabated, OIG's ability to achieve
its strategic goals will be severely compromised by the end of the period covered by this plan. We also assume that we will be able to hire and retain--
or, where necessary, contract for--the skilled and experienced personnel that we need to accomplish our goals and objectives. Completion of planned
information technology upgrades, and maintenance of up-to-date information technology, also is essential to our success in realizing some of these
goals, and in tracking the performance data necessary to demonstrate our success.
   More broadly, our assumptions are based on current administration and congressional policies and priorities, and the current state of world affairs
affecting the Department and the BBG. Our strategic plan will be revised, as necessary, to the extent that policies and priorities of the Department and
Congress or world events change in ways that could significantly affect our achievement of these goals, or indicate a need for us to refocus our goals.


                                                                 Program Evaluation
During FY 2001, a team from the Office of Inspector General, General Services Administration, conducted and issued a report on its quality control
review of OIG audit operations. Results of this peer review have been taken into account in the development of this plan. In addition, the views of the
Office of Management and Budget (OMB), Congress, and the General Accounting Office on the role of the OIG in implementing GPRA have been
considered, as have the results of surveys of Department, BBG, and Congressional customers..




                                                                              4
                                                  Key Factors That Could Affect Goal Achievement
A number of external factors could affect our ability to accomplish our strategic and performance goals and priorities, including increased
congressional mandates for OIG. In addition, certain factors will affect and influence specific strategic goals:

Security
•   The inability of the Department and BBG adequately to fund acquisitions, construction, and upgrades necessary to meet ever changing global
    security threats.
•   Newly emerging threats, such as chemical and biological terrorism, that defeat even the most secure facilities and systems, based on current
    standards.
•   The growth of cyberterrorism, computer crime and related threats that outpace the ability to protect against them.
•   The collapse of a foreign government that could increase the vulnerability of facilities previously thought secure.
•   Conflicting security standards and priorities among government agencies and organizations that might make common goals unattainable.

Financial Management and Administrative Support
• Unforeseen changes in domestic and foreign economies that could exacerbate Department and BBG competitive disadvantages vis-a-vis private
  industry in recruiting and retaining domestic and foreign workforces.
•   Unpredictable increases in the rapid pace and dramatic nature of changes in information technologies that may render government technology
    plans and acquisitions obsolete before they are implemented.
•   The lack of or slow acceptance of changes to domestic and foreign personnel laws and regulations that ensure achievement of desired outcomes.




                                                                              5
          FOREIGN POLICY                          Strategic Goal: The Department and BBG effectively, efficiently, and economically advance the foreign
                                                  policy interests of the United States

          DESIRED OBJECTIVES                      STRATEGIES

Effective implementation and coordination of      Conduct inspections of every post and bureau every 5 years to include assessments of implementation of foreign policy,
U.S. policy goals and objectives.                 management of resources and whether controls are in place to reduce likelihood of mismanagement, and whether adequate steps
                                                  have been take to detect, correct and prevent waste, fraud, or abuse. Summaries from these inspections will be used to develop and
Efficient, effective and economical use of        address systemic issues effecting the implementation of foreign policy identified in the course of the inspections.
resources to accomplish foreign policy
objectives.                                       Determine the Department’s effectiveness in providing timely and accurate intelligence and analysis through assessments of the
                                                  Department’s coordination and liaison with the intelligence and law enforcement communities during the conduct of the post
Management controls are in place to ensure        management inspections.
quality of performance and reduce the
likelihood of mismanagement and whether           Determine whether the Department is successfully coordinating U.S. Government efforts to protect the safety and security of
adequate steps for detection, correction, and     American citizens overseas through reviews of consular service technology, infrastructure upgrades, agreements with foreign
prevention have been taken.                       governments, and emergency readiness activities.

Strengthened U.S. security through the            Assess Department and BBG promotion of the free flow of information to foreign publics through reviews of new and traditional
availability of coordinated, timely, and          program delivery methods, public diplomacy initiatives, activities supporting development of free and independent media, and joint
accurate intelligence and analysis.               efforts to achieve shared objectives.

Improvement in Department coordination of         Evaluate, through means of post and bureau inspections and program evaluations, the effectiveness of the Department's
U.S. Government efforts to protect the safety     administration of visa and passport laws and regulations and timely data sharing with other USG agencies to deny entry into the U.S.
and security of American citizens overseas.       of terrorists, international criminals and illegal aliens; while facilitating legitimate international travel of foreign visitors, lawful
                                                  immigrants and refugees.
Improvement in Department and BBG
promotion of the free flow of information to
foreign publics.

Improvement of Department's efforts at
promoting interagency coordination in support
of the US border security program while
facilitating international travel to the United
States.




                                                                                               6
                SECURITY                          Strategic Goal: The Department and the BBG adequately protect the people, information, and facilities
                                                  under their control in the United States and abroad.

          DESIRED OBJECTIVES                      STRATEGIES

Department and BBG personnel in the United        Perform either a full or limited-scope security inspection of every overseas mission and selected domestic bureaus and operations
States and abroad will be protected from          every 5 years.
physical harm arising from terrorism and other
acts of violence against Americans.               Develop a risk management strategy to identify vulnerabilities in Department and BBG operations and provide guidance on how to
                                                  achieve a more secure infrastructure.
All employees will be held accountable for
security standards, including the handling of     Develop a risk management approach to identify priority areas for field evaluations to determine the Department’s
classified information.                           progress in correcting security weaknesses.
All information systems will operate in a         Review development, implementation, and management of classified information processing, handling and storage
secure manner.                                    standards for the Department.
Intelligence on threats will be disseminated to
                                                  Review major construction projects in the early stages to identify vulnerabilities at a point where corrective action can
protect personnel, information, and facilities.
                                                  be taken in the most efficient and effective manner.
Department and BBG facilities will
substantially comply with security standards.     Review development, testing, and implementation of information management systems and information technology to
                                                  include:
                                                       •    Advanced telecommunications networks and infrastructures that ensure total, secure integration of
                                                            Department, BBG and interagency activities, communication, and data sharing by electronic government; and
                                                       •    Facilities, systems, training, policy, procedures, and data ensuring information confidentiality, availability,
                                                            and integrity from terrorists and other threats.

                                                  Review the acquisition, analysis, and dissemination of threat related information by the Department in the formulation
                                                  of protective policies and measures.




                                                                                             7
 FINANCIAL MANAGEMENT &                              Strategic Goal: The Department and the BBG have the necessary financial and support systems and
  ADMINISTRATIVE SUPPORT                             controls to meet legal and operational requirements

          DESIRED OBJECTIVES                         STRATEGIES

The Department and BBG will be in                    Assess Department and BBG progress in correcting management control weaknesses, including the elimination of impediments to
substantial compliance with the laws and             compliance with the Federal Financial Managers Integrity Act and other Federal requirements and guidance, through annual reviews
regulations with respect to financial                of the outcomes of remediation and compliance efforts.
management, contracts, information
technology, and federal assistance.                  Meet federal requirements for issuing timely audits of the Department and other financial statements.
Specifically,
- control weaknesses will have been corrected,       Develop and implement a risk management strategy for reviewing contracts and federal assistance and provide consultative advice
                                                     on how to achieve greater cost effectiveness and savings.
- quality goods and services will be acquired
economically,
                                                     Determine the optimal time to review the development, testing, and implementation of mission-critical management and financial
- information systems will be integrated and         information systems and conduct such reviews, including verifying, validating, and assessing the usefulness of data.
secure, will provide complete and accurate
information, and will accomplish clearly             Develop a risk management strategy to identify vulnerabilities in property, facility, and equipment management and assist the
defined goals and objectives with fiscal             Department and BBG in identifying and implementing corrective actions.
integrity.
                                                     Assess Department progress in meeting current logistics management requirements achieved through reengineering goals and
Mission-critical systems and processes will be       planned longer-term efficiencies.
substantially integrated and standardized;
automated systems will provide reliable              Review development, testing, and implementation of information management systems and information technology to include:
information for management decision-making               •   Plans and efforts to streamline operations, improve services, and promote electronic government through effective
and performance measurement; and                             application of information technology,
responsibilities to federal entities overseas will       •   Use of the most cost-effective means of providing information technology services overseas, and
be satisfactorily met.
                                                         •   Information security, domestically and overseas.
Department and BBG ability to meet
                                                     Develop a risk management strategy for OIG reviews of information technology projects and provide consultative advice on how to
operational goals and requirements will be
                                                     achieve greater value.
substantially improved.
                                                     Assess the extent to which Department and BBG information systems and processes are integrated and provide reliable information.
Department and BBG efforts to attract, place,
and retain highly skilled, motivated, diverse,       Assess Department efforts to increase program efficiency and effectiveness by automating, reengineering, or outsourcing operations,
and flexible workforces will be efficient and        as appropriate.
effective.
                                                     Assess Department efforts to “right-size” overseas missions.
The Department and BBG will be in
substantial compliance with GPRA, including          Assess the effectiveness of Department efforts to plan for and meet its human resource needs by recruiting, assigning, and retaining
identifying measurable goals, credible               a highly skilled, motivated, diverse and flexible workforce.
strategies, and valid measures of performance.
                                                     Monitor Department efforts to establish and use performance goals and measures and to align resources with goals and performance
                                                     results; identify and share best practices in performance-based management and recommend improved goals, measures, and planning
                                                     techniques, as appropriate.




                                                                                                 8
         ACCOUNTABILITY                          Strategic Goal: The Department and the BBG are free of fraud, waste, abuse and mismanagement.

          DESIRED OBJECTIVES                     STRATEGIES

Department and BBG employees will comply         Identify and address financial malfeasance cases and vulnerabilities and recommend monetary recoveries, where appropriate,
with all applicable laws, regulations and        including increased collaboration between the Offices of Investigations and Audits.
policies.
                                                 Identify, review and recommend internal control improvements to Department and BBG programs and functions that are vulnerable
Department and BBG contractors and grantees      to misappropriation, loss, or waste of assets, especially cash and cash equivalents.
will comply with applicable contract and grant
agreements.                                      Work with the Department to enforce employee accountability in security matters.

Department and BBG Employees will adhere         Significantly reduce the time it takes to review allegations and conduct routine employee investigations.
to standards of ethical and professional
conduct.                                         Expand outreach to employee audiences on standards of conduct and accountability.

Areas of vulnerability and opportunities for     Promote the OIG hotline and other methods, as appropriate, for Department and BBG employees to report alleged fraud,
misconduct, mismanagement, and abuse will        malfeasance, mismanagement, and other improprieties to OIG.
be reduced.

Allegations of malfeasance and other
improprieties will be investigated in a timely
and thorough manner.




                                                                                             9
